<html>
<title> - MISSING FROM THE LABOR FORCE: EXAMINING DECLINING EMPLOYMENT AMONG WORKING-AGE MEN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


              MISSING FROM THE LABOR FORCE: EXAMINING DE-.
                CLINING EMPLOYMENT AMONG WORKING-AGE MEN

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2017

                               __________

                          Serial No. 115-HR04

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
 
 
 
                                __________
                                
 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
33-615                       WASHINGTON : 2019                     
           
 -----------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a2d3a250a293f393e222f263a6429252764">[email&#160;protected]</a>             
 


                   COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania             BRIAN HIGGINS, New York
JIM RENACCI, Ohio                    TERRI SEWELL, Alabama
PAT MEEHAN, Pennsylvania             SUZAN DELBENE, Washington
KRISTI NOEM, South Dakota            JUDY CHU, California
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    ADRIAN SMITH, Nebraska, Chairman

JASON SMITH, Missouri                DANNY DAVIS, Illinois
JACKIE WALORSKI, Indiana             LLOYD DOGGETT, Texas
CARLOS CURBELO, Florida              TERRI SEWELL, Alabama
MIKE BISHOP, Michigan                JUDY CHU, California
DAVID G. REICHERT, Washington
TOM REED, New York


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of September 6, 2017 announcing the hearing.............     2

                               WITNESSES

Brent Orrell, Vice President, Family and Economic Stability, ICF 
  International, Inc.............................................     6
    (Truth in Testimony).........................................    11
Mike Henderson, President and CEO, ABC Baltimore.................    12
    (Truth in Testimony).........................................    20
Tyrone Ferrens, Graduate, Project JumpStart......................    21
    (Truth in Testimony).........................................    25
Anthony Lowery, Director, Policy & Advocacy, Safer Foundation....    26
    (Truth in Testimony).........................................    35

 
  MISSING FROM THE LABOR FORCE: EXAMINING DECLINING EMPLOYMENT AMONG 
                            WORKING-AGE MEN

                              ----------                              


                      WEDNESDAY, SEPTEMBER 6, 2017

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 1100, Longworth House Office Building, Hon. Adrian Smith 
[chairman of the subcommittee] presiding.
    [The Advisory announcing the hearing follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 

    Chairman SMITH. The subcommittee will come to order.
    Good afternoon and welcome to today's hearing entitled 
``Missing from the Labor Force: Examining Declining Employment 
Among Working-Age Men.'' I know this is a priority topic for 
the ranking member, Mr. Davis, and I appreciate his work on 
this issue.
    For decades, the focus of most of our government assistance 
programs have been mothers and children living in poverty. In 
these attempts to help single mothers with children we have 
left out a key figure in the family--the father. Today, there 
are more than 7 million working-age men in America who are not 
working or looking for work. Unfortunately, this is not a new 
phenomenon.
    The large number of men not in the labor force is a trend 
which has been growing for the past 50 years. In 1967, 96 
percent of men were working or looking for a job. Today, it is 
only 88 percent. And it is even worse for those men without a 
high school diploma. An alarming 83 percent, or one in six men, 
are out of work. While unemployment rates have been up and down 
over the past 5 decades, inactivity among working-age men, ages 
25 to 54, has only risen.
    As Derek Thompson noted in The Atlantic in late 2014, 
inactivity among men grew during the Carter, Reagan, Clinton, 
and both Bush Administrations. It grew during the dot-com boom 
and during the Great Recession. And most concerning, inactivity 
among working-age men has grown more since the end of the Great 
Recession than it did during the Great Recession itself.
    This steady decline is most troubling because so few people 
seem to be discussing it. There hasn't been great outrage or 
debate; it's barely even been a topic of discussion. Yet, it 
has a profound impact on our society, the economy, and the 
individual and family well-being.
    The U.S. ranks second to last in male labor force 
participation when it comes to other OECD nations, ahead of 
only Italy. American men who are not in the labor force report 
spending less than 1 hour a day working or looking for work. 
And it is not as if they are all of a sudden becoming the 
primary caretakers at home. They are less likely than working 
men to be caring for household members, such as children or 
aging parents.
    With a 4.4 percent unemployment rate, combined with more 
than 6.2 million job openings--a historically high level as we 
continue to grow the economy--now is the time to engage these 
men and get them back in the workforce, for the benefit of 
themselves as well as their families.
    The economy is not the only major concern. This lack of 
work also has growing impacts on family structure and our 
society. Today, there are roughly 11 million fathers who do not 
live with their children in the United States. Close to 25 
percent of them have no earnings and, therefore, are unable to 
support and care for their children. There are more than 
600,000 sentenced prisoners nationwide released from prison 
each year, many struggling to find work and frequently end up 
offending again, costing taxpayers and hurting communities. And 
there are more than 12 million adults who are able to work yet 
are receiving food stamps with no reported earnings, up from 
just 4 million in 2000, highlighting the growing dependency on 
our public benefit programs.
    In terms of child support alone, which this subcommittee 
has jurisdiction over, we should consider looking at ways to 
better connect non-working fathers to our already existing 
workforce development system, and provide them with on-the-job 
training and apprenticeships when available. We also should be 
looking to make sure all of our benefit programs coordinate 
with the child support system so families are getting the help 
they need from the start.
    While there is no single cause of the declining work among 
men, there are a number of contributing factors: a lack of 
training and credential completion, the rising prevalence of 
criminal records, higher usage of opioids and a growing 
dependency on public benefit programs. We know these men. They 
are our fathers and our sons, our uncles and nephews, and 
families all across this nation depend on them every day.
    I am most excited to hear from Mr. Tyrone Ferrens, who has 
turned his life around after a time of turmoil and is now 
working as an electrician at TEI Electrical Solutions. He began 
this work after attending an employer-led workforce development 
program known as Project JumpStart. I am grateful to him for 
sharing his story and helping our subcommittee gain a better 
picture of the issue at hand.
    Over this past year, the subcommittee has emphasized 
hearing from individuals with real, first-hand experience with 
the issues we are grappling with and attempting to reform day 
in and day out, and I am glad Mr. Ferrens is here to give us 
his perspective today. We have a lot to learn, and I am looking 
forward to diving in.
    And with that, I recognize Ranking Member Davis for his 
opening statement.
    Mr. DAVIS. Thank you, Mr. Chairman, and I want to thank you 
for holding this hearing about the continuing decline in 
working-age men in the labor force.
    My heart breaks for the people in Texas and Louisiana 
struggling to recover from Hurricane Harvey, and I look forward 
to working with you on ways our subcommittee can help in the 
recovery as well.
    Although the decline of men in the labor force is partly 
due to demographic factors such as age and health, I see every 
day the structure barriers to work that face low-income men in 
Chicago, especially African American men.
    In Chicago, the unemployment rate for African American men 
was 21.7 percent in 2015, more than triple the national 
average. In 2014, nearly half of African American men between 
the age of 20 and 24 in Chicago were disconnected from both 
school and work. The educational opportunity gap is startling 
in both urban and rural areas. In fact, we are hosting a large 
event in Chicago this weekend to focus in part about ways to 
overcome the structure barriers facing African American men.
    These men desperately want to work, but they face multiple 
barriers, like low levels of education and basic skills, health 
and substance abuse problems, and mental health challenges, by 
exposure to violence and trauma. Barriers that make work 
challenging and sometimes impossible.
    Many men also make mistakes and have made mistakes in the 
past often due to addiction, and they paid for those mistakes, 
but when they return to their communities after incarceration, 
determined to do better, they encounter tremendous obstacles to 
employment. These men need a fair shot, not a scarlet letter.
    This hearing presents a chance for us to look for ways to 
help hardworking men and women climb the economic ladder and 
find good paying jobs to support themselves and their families. 
The most powerful incentive to work is the opportunity to get a 
good job. The most effective work requirement is access to a 
job that lifts the worker and his or her family out of poverty. 
Good paying jobs break the cycle of poverty and recidivism, 
lifting communities and the overall economy.
    To promote economic opportunity we can strengthen access to 
education and training to ensure workers have the skills needed 
to secure good jobs and that they have the right skills to work 
in the changing economy. To promote economic opportunity we can 
help fathers address the obstacles in their paths.
    The Affordable Care Act increased access to healthcare that 
parents need to address mental, physical, and addiction health 
issues that can prevent work, and that is a good start. Newly 
revised rules for child support enforcement increase fathers' 
ability to provide financially for their children, but we could 
do far more to help those fathers work.
    Our Federal fatherhood programs help fathers play positive 
roles in their families. But these grants reach only a small 
share of those who need them, and they should also enhance 
availability of job training. Further, we need to enact the 
Family First Prevention Services Act, which would allow us to 
address family substance abuse challenges and support family 
members who step up to help, instead of waiting until the only 
alternative is foster care.
    If we shift our policies to address the structure barriers 
and expand opportunities to supporting these individuals, 
families, and communities, we can help these men climb the 
ladder and secure meaningful career pathways to better support 
their kids and families.
    I look forward to working together to tackle these 
structure barriers and promote economic opportunities. I thank 
you again, Mr. Chairman, for holding this hearing, and I yield 
back.
    Chairman SMITH. Thank you to our ranking member. I 
appreciate your statement.
    I would like to welcome our witnesses to the table. First, 
we have Mr. Brent Orrell, Vice President for Family and 
Economic Stability at ICF International. Second, we have
    Mr. Mike Henderson, President and CEO of the Associated 
Builders and Contractors of Baltimore. Then we have Mr. Tyrone 
Ferrens, as we referenced earlier, a recent graduate of Project 
JumpStart. And finally, we have Mr. Anthony Lowery, Director of 
Policy and Advocacy at the Safer Foundation.
    Witnesses are reminded to limit their oral statements to 5 
minutes. All of your written statements will be included in the 
record. You will see the light indicator for a green, yellow, 
and red. Fairly obvious. When you see that yellow light, you 
might look to bring the flight in for a safe landing.
    So we will begin with Mr. Orrell. You can begin when you 
are ready.

STATEMENT OF BRENT ORRELL, VICE PRESIDENT, FAMILY AND ECONOMIC 
               STABILITY, ICF INTERNATIONAL, INC.

    Mr. ORRELL. Thank you, Mr. Chairman and Ranking Member 
Davis, for inviting me here today. I am here to discuss a 
report that I co-authored with Dr. Harry Holzer at Georgetown 
University and Robert Doar of the American Enterprise Institute 
on ``Getting Men Back to Work: Solutions from the Right and 
Left.'' I want to thank the Chairman and the Ranking Member for 
the excellent summary and introduction as to the problem at 
hand. I am going to skip over another explanation of the 
problem and instead talk about solutions to this problem.
    If we want to reverse this downward spiral that we are 
facing, in terms of availability and willingness to participate 
in jobs, we need to look at three key areas, and I would like 
to highlight those. First of all, building skills among men 
seeking work, incentivizing job creation, and then focusing on 
special populations.
    To improve employment and wages among not-in-labor-force 
males, it is vital to enhance skills in the form of 
postsecondary credentials--including certifications and 
associate degrees--using research validated sector-based 
strategies that focus on high-growth, high-wage occupations. 
This will require regionally focused, data driven employment 
programs that align training with high-growth industries and 
occupations. Congress should provide guidance to the 
Departments of Education and Labor to expand sector-based 
strategies in secondary, postsecondary, technical training 
programs, and apprenticeships, as well as consider new 
strategies to apply these specifically to out-of-workforce 
males.
    Second, Congress should review laws governing existing 
public development finance instruments to expand employment 
opportunities for disengaged workers through the use of 
community benefit agreements, or CBAs. ICF has been working 
with Sagamore Associates in Baltimore, Maryland to leverage a 
CBA associated with the passage of a recent $525 million tax 
increment financing package to create a robust project-specific 
workforce development initiative.
    Sagamore has committed to setting aside for Baltimore 
residents 30 percent of the estimated 40,000 jobs this project 
will generate, and this commitment is backed by $40 million in 
developer-funded workforce development activities to find, 
train, and place Baltimore residents in construction and 
follow-on jobs.
    Third, we need to focus on special populations. Large 
numbers of men come into contact with government agencies 
through child support enforcement and the corrections and 
criminal justice system. Congress should take steps to 
strengthen workforce development aspects of both of these 
programs. In child support, we endorsed continued Federal and 
State efforts to right size child support orders and to develop 
debt forgiveness strategies that will encourage work rather 
than penalize it. We also believe more needs to be done to 
improve employment opportunities for noncustodial parents 
through innovative strategies like NCP Choices in Texas that 
combine a clear work, pay, play, or pay the consequences option 
with enhanced workforce development services. We also recommend 
that Congress increase incentives to States to pay for these 
enhanced services by strengthening the Federal child support 
match for employment-related services.
    Finally, for incarcerated populations and those who have 
recently returned from prison, we have a key opportunity to 
increase engagement of men in work. Through the U.S. Department 
of Labor, Congress has invested in pre- and post-release 
programs that pave the way for post-incarceration employment. 
These projects focus on connecting returning citizens to faith 
and community-based groups that help manage reentry and connect 
clients to training and employment.
    A recent study funded by the Ford Foundation found that the 
highest performing of these DOL grants had a number of common 
attributes: they all worked closely with the criminal justice 
system, they all created tailored reemployment plans, and they 
all focused on helping clients gain industry-recognized 
credentials to boost post-release employment.
    The Council of State Governments is doing groundbreaking 
work in aligning recidivism risk assessments with market-driven 
employability assessments in Milwaukee, Wisconsin, and I highly 
recommend taking a close look at that. These and other 
successful strategies should be sustained, evaluated, refined, 
and then replicated.
    Thank you.
    [The prepared statement of Mr. Orrell follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Thank you, Mr. Orrell.
    Mr. Henderson, you may begin.

 STATEMENT OF MIKE HENDERSON, PRESIDENT AND CEO, ABC BALTIMORE

    Mr. HENDERSON. Good afternoon. My name is Mike Henderson. I 
am the president of Associated Builders and Contractors in 
Baltimore. Thank you, Mr. Chairman. Thank you, committee 
members, for your kind invitation to appear before this hearing 
today.
    I am here today to talk about a workforce development 
program we developed 11 years ago in Baltimore city called 
Project JumpStart. I am joined by Mr. Tyrone Ferrens. He is a 
journeyman electrician, and one of our star graduates.
    Project JumpStart is an 89-hour pre-apprenticeship and job 
placement program. We run six classes every year, three on the 
east side of town and three on the west side. We have an 80 
percent graduation rate, and we graduate approximately 120 
students every year. But far more important than our graduation 
rate is our job placement rate, because at the end of the day 
the only true measuring stick that really matters with a 
workforce development program is this: are people getting jobs? 
And not just jobs, but jobs that have progressive salaries, 
jobs that provide recognized accredited training, and the 
opportunities to grow in their profession and in their careers.
    In our case, our job placement rate is 75 percent, and that 
is an average over the 11 years, but in just the last couple 
years that placement rate is better than 80 percent.
    Our program is primarily funded through private foundations 
like the Annie E. Casey Foundation and the Weinberg Foundation, 
but over the last few years, we also are getting funding from 
the city of Baltimore and the State of Maryland. For the 
purposes of this hearing, my goal is to share with this 
committee some of the invaluable lessons that we have learned 
over the last 11 years on those elements that help make a 
program like ours successful. Hopefully, once I give you some 
background and some context about the program and our students, 
it will better explain why we are asked to be here today.
    To begin, our students are all Baltimore city residents. 
Seventy-five percent are ex-offenders. Nearly half of our 
graduates are over the age of 35. Many of our best success 
stories, including that of the gentleman seated next to me, 
involves graduates over the age of 40. Over the past couple 
years, there has been a strong push by our public and private 
funders to focus more on the 18-to-24-year-old population, a 
group that traditionally we have not done as well with.
    After the riots in Baltimore in the spring of 2015, we 
decided to bring in 20 to 25 of our best graduates and we held 
a focus group. One of the questions we asked them was: ``Why 
were you able to succeed when the guy who sat next to you in 
class or the guy who grew up across the street from you did 
not?'' They said they saw Project JumpStart as their best, last 
chance to succeed in life, and if they didn't stick with it, 
and apply themselves fully to it, in 6 months' time they would 
either be back in prison or dead.
    That wisdom and that sense of urgency is something we have 
seen from our older students, individuals who made a mistake 
earlier in life and are now looking for an opportunity to right 
that ship. Unfortunately, you don't get that kind of a life 
perspective without making mistakes and taking your lumps.
    A year ago, Johns Hopkins University and Johns Hopkins 
Hospital wanted to meet with us to try to figure out why 
JumpStart works. Between those two entities, they spend over 
$100 million a year in construction, and part of Baltimore 
city's programs (where they encourage local hiring), they 
worked with a variety of workforce development programs. They 
said when they work with other programs, sometimes it takes 20 
candidates before one placement actually sticks. With us, we 
send them four and two or three of those people actually get 
jobs.
    I can only speak to the population we work with every day, 
but the problem in Baltimore city is not that you have men who 
don't want to work, but you have men who don't know the path to 
get a good job. They don't have the connections with those who 
are making those hiring decisions. No one ever taught them how 
to build a network or how to make those connections. One of the 
most important things we learned, is that you have to be part 
of a community--employer community.
    ABC Baltimore represents nearly 650 commercial builders in 
our region, and we represent more builders' employers than 
anyone else in our area. There is a lot of well- meaning work 
development programs out there, but they are disconnected from 
the employment community. The employers have to be central to 
your program. And I can see I am running out of time.
    [The prepared statement of Mr. Henderson follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Three seconds. Thank you. We will have time 
for some questions and dialogue after as well.
    Mr. Ferrens, you may again.

    STATEMENT OF TYRONE FERRENS, GRADUATE, PROJECT JUMPSTART

    Mr. FERRENS. I thank you for having me here today.
    Mr. Davis, the beginning of your statement sounded like you 
were describing me to a T. I was raised in a single-parent 
home. My father was an addict and a drug dealer in Brooklyn. He 
still is to this day. I saw him only on the weekends maybe once 
a month, and yet my two older brothers and myself followed him 
down that path exactly. We all have felony convictions. We have 
all spent time in jail. We have been through rehabs. I 
personally spent 16 years in the grips of a crack and heroin 
addiction prior to coming to JumpStart.
    My last conviction was a felony assault, and part of my 
sentence was a year of inpatient rehab. It was during that time 
I kind of came to grips with the fact that I was never going to 
amount to anything; but, I did leave with a single goal, and 
that was to see that my son didn't have to go through the same 
path I did. And in order to do that I was going to need to get 
a job and I was going to need to stay out of prison.
    I went to a career center in Baltimore, and they referred 
me to Project JumpStart. They were offering a $50 stipend to 
attend those classes, and that was enough for me to be 
interested in it. It was during the orientation I received a 
glimpse of hope for a better future, something I hadn't had. 
During my addiction, on plenty of occasions I didn't want to 
wake up in the morning. I didn't care if I lived or died. I 
didn't see any way, any route to a better future.
    During that 13 weeks of training, I received training in 
everything as far as math to residential wiring. We had resume 
preparation, mock interviews. We did conflict resolution. We 
did an OSHA 10-hour class. They seemed to have had everything 
that we would need to be prepared to be successful in the 
workplace. We were taught what employers were expecting from 
us, and how to be successful on the job site. The different 
demographics and the different people from different 
ethnicities, races and religions on a job site is something 
that I hadn't been exposed to before.
    In the beginning, they explained to me that if I graduated 
at the top of my class, that they could pretty much guarantee 
me a job. I graduated at the top of my class. Two weeks later, 
I was placed on a job. They were able to get me hired even 
though I had an 8-year gap in my resume. Four years after 
that--well, actually, 6 years, I completed my 8,000 hours of 
on-the-job training, 4 years of apprenticeship classes with 
ABC, and today I am a licensed journeyman, as Mike said.
    The biggest impact that this program has had on my life is 
that it goes far beyond me. My son is the first one to step 
foot on a college campus. My mother had retired and was 
struggling on Social Security, and after years of torment that 
I put her through as an addict I was able to move her into my 
home. I became a first-time homeowner last year. My daughter, 
who is 30 years old, spent half of her life with a father that 
was an addict and a disgrace and an embarrassment. She is 
presently in a JumpStart class that is taking place now. She 
looks up to me, she admires me, and she wants to follow in my 
footprints. That is three generations in my family that has 
been changed from this program.
    I now mentor younger JumpStart clients. Throughout this 
entire process--I graduated 9 years ago--JumpStart has been 
there supporting me every step of the way. I mean, my problems 
have evolved. In the beginning, it was court dates and 
probation hearings and charges, pending charges. Now I call the 
director in regards to parenting skills. Because I didn't have 
a father I struggle in that area. She always reminds me how far 
I came, because my problems are the same problems regular 
people have now. We call them ``regular people problems.'' She 
explained to me that everyone has problems in relationships and 
with their spouses and with their children. I am grateful for 
that as well.
    It is just a genuine gift to have this program in my life. 
And I get questions all the time asking if there is one like it 
in other States. I get calls from my family members, and 
unfortunately, I have to say no. But I would like to see this 
committee just do something in this field to help.
    Thank you for having me today. I appreciate it.
    [The prepared statement of Mr. Ferrens follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Thank you. Thank you for sharing your 
story.
    Mr. Lowery.

  STATEMENT OF ANTHONY LOWERY, DIRECTOR, POLICY AND ADVOCACY, 
                        SAFER FOUNDATION

    Mr. LOWERY. Thank you. Mr. Chairman, Ranking Member Davis, 
and members of the subcommittee, thank you for the opportunity 
to testify on the decline in the labor force participation of 
men. I represent Safer Foundation, a Chicago based nonprofit 
that has provided employment and support services for people 
with criminal records over the past four decades. The Safer 
Foundation believes that men and women who have made mistakes 
in the past should have an opportunity to be self-sufficient so 
that they can take care of their families and make our 
communities safer.
    There is dignity in work. Our clients come to us because 
they want to work, and are willing to do everything in their 
power to earn the right to work. But our society's overemphasis 
on punishment at the expense of rehabilitation is affecting 
labor force participation rates and workforce morale. My 
interaction with directly impacted individuals has taught me 
that hopelessness rather than choice keeps people out of work. 
I have seen many very qualified people who have criminal 
records be denied employment, housing, or a license, decades 
after they have served their time.
    The issue of criminal justice reform is a socioeconomic 
one. Our country cannot afford to continue to deprive returning 
individuals of a second chance to become contributing members 
of our communities. Instead of shunning them, it is imperative 
that we begin to view their reintegration as vital to our 
country's prosperity.
    We have been good at filling prisons with sluggish and 
fostering reintegration and economic inclusion, an important 
ingredient of public safety. Our National Employment Law 
Project, one of our national partners, estimates that one in 
three Americans have some type of an arrest or conviction 
record that would interfere with their ability to get a job. 
Nearly half of U.S. children have a parent with a criminal 
record.
    As a result, our agencies, our taxpayers are burdened by a 
preventable problem. Take the example of Illinois where, 
according to one estimate, 42 percent of working-age adults 
have an arrest or conviction record and where almost half of 
the 30,000 people released from the Illinois Department of 
Corrections were returned to it within 3 years of release. The 
Illinois Sentencing Policy Advisory Council estimates that 
recidivism amongst probationers and parolees and the formerly 
incarcerated cost the State of Illinois $16 billion over a 5-
year period.
    Mass incarceration and employment barriers faced by people 
with criminal records, combined with the opioid epidemic, have 
deflated the U.S. labor force participation rates, which are as 
low today as they were over 30 years ago. This has a tremendous 
negative impact on our economy.
    The U.S. is experiencing a long period of economic 
expansion, but experts warn that this expansion will end 
prematurely if we don't relieve these structural strains on the 
labor force participation.
    Safer Foundation has worked with people with arrest and 
conviction records for over 40 years. Research, in Safer's 
experience, has shown that employment is the most direct link 
to reduce recidivism. I go into prisons, I go into schools, I 
go into churches, and the biggest question I ask people when I 
go into the correctional facility is ``What are you going to do 
to stay free?'' Dignity, understanding, and viability are 
dependent on their ability to get a job.
    A Federal commitment to create more job opportunities or 
skills training will reduce the attendant strain on our 
criminal justice system and on taxpayers. It will increase the 
tax base, give employers credentialed employees, stabilize 
violent communities, and pull families out of intergenerational 
cycles of poverty and violence.
    As the labor market tightens, employers are more ready than 
ever to give people with records a fair shot. Safer is 
partnered with hundreds of employers to meet their workforce 
needs. Our newest initiative is our Safer Demand Skill 
Collaborative, which came out of our clients' desire for living 
wage jobs and economic mobilities in some high-growth 
industries like healthcare.
    As a result of our participation in healthcare, and when we 
started with our healthcare initiative, I think I was here a 
few years ago testifying and just looking at opportunities in 
high-growth industries, and we picked healthcare. We also 
partnered with Johns Hopkins Hospital, who have been hiring 
people with criminal records for over the past 15 years. We 
partnered with Hopkins. Now we have a consortium in Chicago 
with over 12 healthcare hospitals and networks, where out of 
the first 60 people we have got hired in healthcare, only one 
person has left that job.
    So, again, what we feel that the Federal Government can 
provide incentives to contractors, and pass legislation modeled 
after laws in Michigan, Ohio, and Texas that provide negligent 
liability protection for employers who hire people with 
criminal records. We feel that would be an important pathway to 
employment and increasing opportunity in the workforce.
    Chairman SMITH. Thank you very much. I really appreciate 
each of your testimony. It is refreshing to see a focus on 
solutions. It is easy to identify a problem around here, it is 
more difficult to focus on solutions. As you speak from 
experience, it is important that you share your perspective, 
and, Mr. Ferrens, I can't thank you enough for sharing in a 
very direct and helpful way for us. We salute you. I look up to 
you, as well, for really making a difference in your life and 
allowing others to help with that.
    I hear from employers all the time that they need 
employees. We have a large number of people who would like to 
leave poverty and, through economic opportunity, we can fill 
these gaps. I think we are more productive this way. JumpStart 
is important in this regard, especially as it impacts families.
    Mr. Ferrens, if you could go back in time, what would have 
been something you would have changed to help you achieve 
success earlier in life?
    Mr. FERRENS. I thought about that in the past, and I 
struggled in school. I was diagnosed with dyslexia in high 
school and I have just been diagnosed with adult ADHD as well. 
Academics weren't a strong suit for me, but hands-on and visual 
learning work well for me. Being that there is an emphasis on 
going to college, and I was struggling in school, I didn't see 
that as my route. I tried athletics, but my genetics failed me 
there. I wasn't given too many other options.
    Had I been exposed to tradesmen, and known that you could 
make close to six figures as an electrician, and that it could 
be another route to live a successful, productive life, I would 
have probably chose it way earlier in life. It was just 
exposure to other things, to other routes.
    Chairman SMITH. So you discovered JumpStart through a 
career center and a stipend associated?
    Mr. FERRENS. Yes. I went to a career center just trying to 
get anything. I really thought I would be working at McDonald's 
for the rest of my life. That ban-the-box thing is high on my 
agenda because people don't come out of prison wanting to go 
back to prison. It is due to a lack of opportunities and 
desperation that you go back to doing the things that you are 
accustomed to doing.
    Even now, 10 years in, there are jobs I can't get, as far 
as placements in facilities because of my conviction. I tried 
to move into a nicer neighborhood in a better school district 
for my son and I qualified financially, but because I had to 
put ``convicted of a felony,'' I was denied. It is a huge 
obstacle.
    Chairman SMITH. For about 10 years you are saying?
    Mr. FERRENS. My last conviction was in 2007.
    Chairman SMITH. Mr. Henderson, if you could elaborate a 
little more on JumpStart and what led to the creation and also 
deploying that and how you think that has been most effective 
in impacting the community. How long has it been around now?
    Mr. HENDERSON. Eleven years ago, Johns Hopkins was getting 
ready to spend a billion something dollars to create a biotech 
community in their footprint of the hospital. They wanted to 
make sure that people who lived in that community benefited 
economically, so we responded to an RFP. We were selected.
    We made mistakes in the beginning. In the beginning, we 
tended to side towards leniency, and we realized that we were 
not producing candidates that employers wanted. They did great 
for a couple weeks, and then they flamed out. So very quickly 
we learned you train the way you work and need high standards, 
and that it is not for everybody. That is kind of an anathema 
to a lot of city politicians that it is not for everybody. But 
we maintained very high standards to get in, high standards to 
stay in, and high standards--a lot of times, and Tyrone can 
tell you this, that first placement isn't always the best 
placement. We have a full-time placement director, and she says 
do it, work hard, listen, show interest, I am going to find you 
a better placement. But it was kind of his proving ground.
    And so high standards, and it is so important that you are 
connected to employers. Everything we do is centered around 
what employers are looking for. One of the most effective 
things we do is we bring people like Tyrone back and they talk 
to students in class. Because at some point they have all been 
through a program, and when they first got into JumpStart they 
thought, well, this is just another program that somebody sent 
me to, maybe my probation officer. They found out very early 
JumpStart is different, because we have been able to build a 
team of people who are very serious about helping them succeed.
    Is that pretty much what you are looking for? Chairman 
SMITH. I appreciate that.
    Any other comments others would like to offer? Mr. Lowery.
    Mr. LOWERY. Well, first of all, I would like to commend 
Tyrone on his journey, also being a person with a past criminal 
record is one of the greatest challenges a person will ever 
face as far as having the anxiety, letting your family down, 
letting yourself down, then trying to reenter the workforce. 
Today, I am the director of policy and advocacy of Safer, 
recognized as a national advocate. In Illinois, I initiated the 
ban-the-box legislation, the occupational licensing 
legislation, the sealing legislation, but let me go and apply 
for a job, a 20-year-old criminal record would determine what 
the employer felt I was.
    I always talk to our people with every class that comes 
into our building, and we see about 5- or 6,000 people a year, 
as far as what we are trying to do is create a new image of who 
you are in the eyes of the employer. And just talking to our 
people about the impact of the record so they can explain to 
their families because, again, when you see a lot of situations 
of people having a record and have promised that they are going 
to do the right thing don't get the opportunity, as Tyrone 
said, then they go back to the old streets, the old things that 
they used to do and they wind up incarcerated again.
    Chairman SMITH. You spoke briefly about legal liability 
addressing that. Could you elaborate on that a bit?
    Mr. LOWERY. Yes. What we had to do, in the State of 
Illinois, we, about 18 years ago, passed legislation, what we 
call a certificate of good conduct, which provides when the 
court looks at a person's rehabilitation, the court declares 
that person rehabilitated. And with that certificate of good 
conduct contains negligent liability protection.
    As far as doing this for the years I have been doing it, 
the biggest concern from employers were if I hire a person with 
a record and they do something on the job, I can get sued. So 
the negligent liability was critically important. And doing the 
healthcare work we were surprised, when we went to Ohio and we 
went to Texas, that they had negligent liability legislation on 
the books to kind of erase that fear that employers have so 
that they can look at the candidate, they can look past the 
fear.
    What we are doing in Illinois is pushing forward negligent 
liability protection for all employers who hire people with 
criminal records, because that will eliminate that fear so they 
can get good people, so that people can get that job, transform 
themselves, their families, and then ultimately communities in 
which most people in Illinois with criminal records live in.
    Chairman SMITH. Maybe there could be some negligent 
liability protection for Congress passing bad bills from time 
to time.
    Mr. LOWERY. Yeah, that might help.
    [The prepared statement of Mr. Lowery follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. All right. I thank you.
    Mr. Davis.
    Mr. DAVIS. Thank you very much, Mr. Chairman.
    Mr. Lowery, given the fact that I live in Chicago and the 
fact that Safer is based in Chicago, I am aware of the long 
history of engagement in this type of work. What has fascinated 
me the most has been the relationship developed with Johns 
Hopkins University Medical Center. Could you share a little bit 
more how you made that contact and how you decided that you 
would pursue the health industry as an area to explore?
    Mr. LOWERY. Okay. Thank you, Congressman. And again, I 
would like to thank you for your part as far as making all of 
that possible. I was invited here a couple years ago at a 
Father's Day event, and I think with the featured Attorney 
General Holder, and in doing research for that event I saw a 
staggering number of 15 million jobs in healthcare, and I was 
like this is unbelievable. Cabrini Green Legal Aid, which is 
the leading criminal records advocate in the State of Illinois 
had called me about a lady who had a 30-year-old misdemeanor 
conviction and couldn't get a job as a CNA in a healthcare 
facility, and I said this is un-American.
    So when I came here and talked about the need for people--
for congressional members to go back to their communities, talk 
to healthcare entities because healthcare is the largest 
employer, fastest growing sector in this country. Congressman 
Davis does a workshop at the legislative annual caucus, and he 
featured Pamela Paulk from Johns Hopkins Hospital, who was the 
head of human resources at the time. When we heard Pamela talk 
about how she had been hiring--Hopkins had been hiring people 
with criminal records for the past 15 years, we said, well, 
wait a minute, we need to do this in Chicago.
    So we invited Hopkins to come to Chicago, and Pamela was so 
gracious to come. Congressman Davis came and joined the event. 
We got Chicago Urban League Cook County Board of Commissioners, 
and we had the first healthcare forum in the city of Chicago 
where we brought hospital CEOs, and hiring managers, to talk 
about an untapped workforce.
    We highlighted one of our former clients, Melody Young, who 
as a young mother addicted to drugs, had went to prison, came 
out, got a job in healthcare, but when the background check 
came back, she was let go. She continued to go to school, work 
on her clemency and pardon, and now she is a nurse with Great 
Lakes Naval for the Veterans Administration.
    When Melody told her story and her journey about redemption 
and challenges and opportunity saying that ``I am not a bad 
person, I made bad choices,'' she changed the face of who 
healthcare employers thought people with criminal records were. 
That allowed us to have the opportunity and open up hiring 
opportunities.
    News came to Washington about what we had did and our 
national partner, National Employment Law Project, collaborated 
with us, so we did additional forums in Dallas, in Cleveland, 
and in Oakland, California. Now, we have healthcare employers 
as part of our consortium sending us open positions. What we 
have done is changed that image and opened up that opportunity. 
The opportunities when we were in Texas, the lady who has the 
consortium in Dallas, said, all the graduates in all the 
medical schools in Texas, we still do not have enough people to 
fill these positions.
    When looking at healthcare being a natural, and then just 
eliminating that barrier, getting those to see that people make 
mistakes, they are credentialed, there is protection, can we 
just have a basic American opportunity to work.
    Mr. DAVIS. Thank you very much.
    And, Mr. Ferrens, listening to you was kind of like being 
in a church of God and Christ church and manna coming down from 
heaven, to be very honest about it. Your experience, your 
success really makes you a role model for individuals who have 
had similar circumstances. If you pinpointed one barrier, what 
would you say was the most difficult challenge to get beyond?
    Mr. FERRENS. To pinpoint one, I think the most difficult 
part for me, it wasn't even so much the training, it was 
cutting loose of people and things that I was accustomed to, 
people that surrounded me. When I decided I wanted to change my 
life and I was attending this program, I still lived in the 
community I used to get high in. I still lived in the community 
that I sold drugs in. I think breaking those relationships and 
stepping out, being strong enough to say I am not going back 
that route, was probably the most difficult part of that 
change.
    Mr. DAVIS. Thank you. Thank you very much.
    And thank you, Mr. Chairman.
    Chairman SMITH. Thank you.
    Ms. Sewell you are recognized.
    Ms. SEWELL. Thank you, Mr. Chairman and ranking member. 
This is a really timely subject, and I want to thank all of our 
panelists for being here today. I grew up in Selma, Alabama, 
and I have the opportunity now to represent Birmingham and 
Selma here in Congress, but I can tell you that the difference 
between Birmingham and the rural communities is vast, yet I 
represent both.
    My first question is, how do we take programs like 
JumpStart, programs like Safer Foundation and scale them to 
smaller communities, rural communities?
    I know, Mr. Chairman, you and I both are very passionate 
about rural communities and the systemic barriers to employment 
and--their systemic barriers and there's structural barriers, 
but in rural communities it is lack of transportation, it is, 
lack of skills, obviously, but also lack of economic 
opportunity. So as we see people graduating from these rural 
communities, they are not coming back, and they are becoming 
smaller and smaller. And this Nation was founded on small 
communities. And so I don't want to lose that.
    My question to both you, Mr. Lowery, and you, Mr. 
Henderson, is how do we scale your kind of programs to small 
rural communities?
    Mr. HENDERSON. Boy, that is a great question. I don't have 
rural communities. We have suburbia. And I don't think that 
counts.
    Ms. SEWELL. It doesn't count.
    Mr. HENDERSON. I mean, what drives these programs are our 
programs are driven by economic activity. There is a severe 
shortage of skilled workers in the construction industry 
nationwide, but we are at the epicenter where the Sagamores of 
the world and Johns Hopkins of the world are spending hundreds 
of millions of dollars annually. How that translates into--wow, 
I don't know. I wish I had some--it is a long way of saying I 
can't help. I don't know.
    Ms. SEWELL. Mr. Lowery?
    Mr. LOWERY. Well, what our experience has shown is that 
then we also operate two work release centers for the Illinois 
Department of Corrections where we do the training, and we look 
at the areas of high employer needs. Because again, to 
eliminate the stigma of hiring a person with records, the need 
has to be tremendous. So we collaborated, and we had a program 
a few years ago where we had job training, computer training in 
every State prison in the State of Illinois, all 27, and we 
collaborated with community colleges to do the training in 
those areas.
    Ms. SEWELL. That is a very good point. My time is almost 
up, and I really want to commend Mr. Ferrens. You really are at 
the face of what is possible if you want to change your life, 
and you have the resources and the opportunity to do so and the 
will to do so, so I want to commend you for that.
    Unemployment in my district--the average unemployment in my 
district is 9 percent, even though the national average is 4, 
so it is almost double. And we have a job fair every year, and 
we alternate urban and rural because I have both in my 
district. The first one we had was in Birmingham and it drew 
over 5,000 people. People were wrapped around in a very hot 
August day around the civic center, showing to many of the 
folks who think that people don't want to work that they do 
want to work. People do want to work. I think that there is an 
indomitable spirit and that nothing is more important than the 
dignity of knowing that you can take care of yourself and your 
family.
    And so my next question, or last question really, is to 
you, Mr. Ferrens. One doesn't walk this road alone, and were 
there any Federal programs that helped--that were wraparound 
services that helped you while you were being trained through 
JumpStart?
    Mr. FERRENS. None that I was aware of.
    Ms. SEWELL. If you could sort of figure--if you could have 
a magic wand and sort of help all of us understand second 
chances, what would you say to those who don't believe that 
people deserve second chances?
    Mr. FERRENS. I can tell you JumpStart graduates, I can 
speak from my perspective.
    Ms. SEWELL. Yes.
    Mr. FERRENS. And on the job we operate at a whole other 
level. I mean, the level of gratitude we have for someone 
giving us the opportunity to perform. There is no reason for 
you to hire me. So when you give me a job, you know, JumpStart 
graduates are genuinely grateful.
    We had a MICA job that was behind, it is a school, 
education. They opened 7 days a week for us to work. My company 
has over 100 employees. There were probably 17 that showed up 7 
days a week for 4 weeks. Nine of the 14 of the 17 were 
JumpStart graduates. My company only has 14 JumpStart graduates 
on its staff. You know, it was a chance for us to show our 
commitment to our company and thank them for hiring us.
    Ms. SEWELL. And to your community. Yes. Thank you. Well, I 
commend you and thank you for being here today, all of you.
    Chairman SMITH. Thank you.
    Mrs. Walorski.
    Mrs. WALORSKI. Thank you, Mr. Chairman.
    Well, I am all fired up listening to your story because it 
is, I think, the answer and the solution we are looking for.
    And I kind of want to address this to you, Mr. Orrell, just 
kind of like the bird's eye view of just a couple of things.
    One was you talked about in your written testimony, Mr. 
Orrell, about the need for a consistent message about the 
socioeconomic and personal importance of work and self-
efficiency. You trace it back to the 1996 Welfare Reform Act, 
and I want to go a little bit further than that.
    A 1935 State of the Union Address President Franklin 
Roosevelt said, ``Work must be found for able-bodied but 
destitute workers.'' Posters for his works progress 
administration blared in big letters all over the country: 
``Work promotes confidence.''
    And I want to get to you also, Mr. Ferrens, after I ask you 
this question, and I know the how is different in today's 
culture, but FDR was also a big believer in the idea that those 
that can work must work, and we must discourage sitting on the 
sidelines.
    In my district in northern Indiana, the home of the RV 
industry, today, right now, in just one county we have 30,000 
jobs available. We are at full employment because of about 1.7 
percent unemployment, meaning 1.7 of the people are not going 
to work. Thirty thousand jobs today. There are plenty of 
reasons for this. I hear it every day from everybody and their 
brother. They can't hire workers that can't pass the drug test. 
And this is in relation to this latest onslaught of opioid 
addiction.
    We have looked at this at several layers in my State, the 
Governor--we are engaged now with a task force. Drugs are in my 
State and the Federal level as well looking at our State of 
Indiana. These opioid deaths now are being called deaths of 
despair, but there are still tens of thousands of jobs 
available. And I guess, Mr. Orrell, from the big picture can 
you give us some perspective on the relationship between 
unemployment and the rapid rise of opioid addiction in our 
country? And then does anybody have any conclusive evidence to 
determine is this a causal relationship and then followed up 
by, if so, does unemployment lead to addiction or is it vice 
versa?
    Mr. ORRELL. So it is a complex interplay of factors. I 
highly recommend the study by Anne Case out of Princeton 
University on this, who she and her husband coined this phrase, 
``the deaths of despair.'' She really looked at after you tease 
out all the factors that could contribute to the opioid 
addiction, what you get is a cumulative impact on people's 
lives that is founded in unemployment. It is not only 
unemployment.
    Mrs. WALORSKI. Right.
    Mr. ORRELL. It is breakdown of families. It is the 
dissolution of other community institutions. It is problems in 
marriage. It is all sorts of things that feed into it. But 
after you control for all of that, you don't really see the 
rise in the kind of deaths of despair that we have seen until 
you see the deindustrialization of the American economy and the 
loss of those jobs. Unemployment, they argue, is really at the 
base of this.
    Mrs. WALORSKI. Mr. Ferrens, thanks also for your story. 
But, you walked through this world, maybe not just with 
opioids, but certainly drug addiction. And so for you, you have 
already said kind of how you got turned into and got turned 
around into something else when you changed your mind. But as 
you kind of look out over the scale of the map today, do you 
think it is also the same kind of--is it an unemployment issue 
that turns your head around to say I need to be responsible, I 
can do this?
    I am thinking of the people in Indiana right now, 30,000 
jobs and, technically, people still talking about there is no 
jobs, there are no good jobs. Do you have a perspective on 
that?
    Mr. FERRENS. It is hard for me to fathom that situation.
    Mrs. WALORSKI. Oh, I know.
    Mr. FERRENS. You know, from the inner city it is always a 
lack of opportunities. But I know in my walk, drug use starts 
earlier in life than unemployment before you even start looking 
for a job.
    Mrs. WALORSKI. Right. Exactly.
    Mr. FERRENS. You know, so I would probably go with the drug 
use leads to unemployment, just from my perspective in the 
inner city. And a lot of it is the single parent homes and 
the--I guess you would call it depression. You know, it is hard 
to look at your kid--as a father, you have single parent homes 
because you don't want to be reminded of your failure. It is 
hard when you can't put sneakers on your kid's feet to be in 
that kid's life. It is much easier to turn and run because you 
are unemployed, rather than stay in that kid's life and feel 
like a complete failure.
    It is a big picture, and you turn to drugs to deal with 
feeling like a failure. It is far more big than what I can 
offer you.
    Mrs. WALORSKI. I appreciate your perspective.
    And thank you gentlemen, and thank you, Mr. Chairman. I 
yield back.
    Chairman SMITH. Thank you.
    Mr. Bishop.
    Mr. BISHOP. Thank you, Mr. Chairman. And thank you to the 
panel for being here and sharing your time and your testimony.
    Mr. Orrell, I was wondering, much of the success of a 
program like this has to do with changing the culture in our 
country of basing success on who can send their kid to a four-
year--or to a college to further their career. How do we deal 
with that? How do we go from a society that puts so much 
emphasis on college only to come out on the other side with 
huge debt and no job? How do we transition to a position where 
we actually encourage folks to use their talents that they have 
today and transition right into the workforce? What is the 
message--what can government do to encourage that kind of 
mindset?
    Mr. ORRELL. I think it is a great question as to how we 
encourage young people to think about non-four-year 
opportunities. The reality is that everybody in the economy now 
and, in the future, is going to need some sort of postsecondary 
training. What we need to do, is make young people aware of the 
opportunities. There are good livings to be had in the trades, 
in technical fields, in manufacturing, in healthcare, that 
don't require four-year degrees.
    So encouraging people, encouraging youth to understand, 
providing the information, here is what is available to you. 
Did you know it is not uncommon these days for welders to make 
$100,000 a year? Did you know that there are manufacturing jobs 
that will start you out at 40-, $45,000 a year and with great 
career pathways? And you won't have to have the $80,000 in debt 
that you get out of a bachelor's degree for something you may 
not be able to use.
    Mr. BISHOP. Interesting. It is a conundrum that we want to 
put emphasis on higher education, but at the same time there 
are some folks that just do better, as Mr. Ferrens indicated, 
outside of school, hands on, and that is the kind of thing that 
public policy should support and not look down upon.
    I wonder if, Mr. Henderson, you might be able to comment on 
whether or not you think that the groups, the projects like you 
have been working on, Project JumpStart, government, community 
colleges, talk to each other. Do we talk outcomes based to 
suggest how we can best work together? And if not, how can we 
encourage that?
    Mr. HENDERSON. It is a challenge. We work with the 
community colleges. We work with the public schools. Everybody 
has their own fiefdom. Everybody has their own set of 
objectives they have to meet, and sometimes they feel like in 
order to get it, in order to get funding, they have got to do 
it unilaterally and would it make sense to bring other people 
into the program? And I especially see this with the community 
colleges. They are an important partner for us, but they have 
their own dealing with funding, dealing with changing student 
body.
    I just want to tag on real quickly what the gentleman was 
saying about school. Change the way you incentivize and judge 
and hold principals and guidance counselors accountable. Give 
accredited industry-recognized training the same way that they 
give AP tests and four-year college degrees and you will see a 
change.
    Mr. BISHOP. A very solid recommendation. Thank you, sir. 
Mr. Ferrens, your testimony, your story is really quite 
inspiring and compelling. I am wondering if you might be able 
to tell me, you drew my interest with regard to criminal 
conviction. Mr. Lowery also spoke on the subject, and how that 
is an impediment to your future.
    Has there been any effort afoot to try and create an 
expungement process so that you can expunge your record and not 
have to go through life with that anchor around your neck?
    Mr. FERRENS. I have attempted in the past. There was a lot 
of bureaucracy as far as regards to your last offense being a 
conviction, whether it can be expunged or not. It just got 
extremely frustrating for me. And it bothers me, because I feel 
as though my son and my children are still paying for that 
mistake, in regards to the opportunities that I have that would 
affect their lives and our living situation.
    Mr. BISHOP. The purpose of expungement and the reason why I 
raise it is because it is supposed to give people like you, who 
have proven themselves to society, who are not likely to be a 
recidivists, who are productive members of society, a second 
chance. I have always supported, and I think it makes sense to 
support public policy that encourages that kind of fatherhood 
and citizenship going forward.
    So I appreciate your testimony and I think it sheds light 
on an important need in public policy in this country.
    Mr. LOWERY. I just wanted to jump in for a second as far 
as--in Illinois we just passed the largest expansion of sealing 
in the history of the country. Where before you had only 9 
felony convictions that can be sealed. Now there are hundreds 
that can be sealed after the waiting period, after the 
appropriate rehabilitation.
    I think the biggest change that needs to happen, and I know 
Congressman Davis had introduced Federal legislation about 
sealing the record, but the biggest thing is the perception of 
who a person with a criminal record is. And, again, 
rehabilitation is not a made-up word. People turn their lives 
around. Given the opportunity to turn their lives around, the 
basic dignity of work, there has to be a commitment and a 
messaging from the Federal Government to allow people second 
chances to just basically work. And I think that will go a long 
way with resolving issues, labor place, and all the other 
associated ills that we are facing.
    Chairman SMITH. Thank you. Mr. Reed.
    Mr. REED. Thank you, Chairman. And thank you to our 
panelists for the input. And I want to focus my opportunity 
here to really get beyond the data, and I spent a lot of time 
measuring the data, looking at an evidence-based perspective. 
But to have a conversation with you, Mr. Ferrens, primarily 
about the human experience that you went through. I, too, am 
the son of a single mother. Father passed when I was 2. I have 
11 older brothers and sisters, and I was inspired by her to 
lead the life that I have led in order to sit here as a Member 
of Congress, relatively coming from nothing.
    I am interested in getting to--sometimes of a debate that 
we have here in Washington, D.C., that I really try to look at 
it from the perspective of the other side of the aisle. When it 
comes to the conversation about work requirements, when it 
comes to the policies that we are trying to advocate for 
purposes of giving people the opportunity to get an education, 
volunteer in their community, to go to school, to get that to 
work.
    And sometimes I am chastised for advocating for that type 
of policy. That I am heartless. That I am clueless. That I 
don't know the difficulty that that represents in a human 
being's life as they go through that requirement.
    And so sometimes I also have a conversation about the 
unintended consequences of what are good faith initiatives by 
many people here in Washington, D.C. when it comes to providing 
cash welfare or government assistance. And I don't think there 
is anyone here who is fundamentally opposed to that. But I want 
to understand the human psyche, because we experienced it in 
our family when we relied on government programs.
    Is there any consequence to you as a human being when you 
are given a government program, a government check, as opposed 
to earning that government check or earning that resource that 
you bring to your family? Did you ever experience any of that 
in your life experience, and could you share with me that 
story?
    Mr. FERRENS. Yes. I have been a recipient of welfare, food 
stamps, a lot of government assisted programs. And there is no 
comparison. None whatsoever. It is innate that as a man you 
want to be the provider, the protector of your home. You can't 
describe what it is to earn something versus just being given 
something. I would have much preferred someone giving me or 
exposing me to a program like JumpStart, rather than me getting 
a check on the third. There is no pride that comes in that. 
There is no appreciation for it. There is no value in it. 
Anything that comes easy you don't appreciate. I wouldn't 
compare the two.
    Mr. REED. I appreciate that experience because that is 
exactly what I have heard as I travel around the country and 
when we have taken initiative on welfare reform. The dignity, 
the pride of earning that resource, even if it is a government 
program. That you are showing up and you are volunteering in 
your community, you are giving back to that community. I have 
seen such dignity as a result of that.
    Would you, Mr. Lowery or Mr. Ferrens, would you agree that 
sometimes what we do with the well-intentioned purpose of what 
we are trying to do may have an unintended consequence that 
gets to the psyche, the dignity, and the ability of an 
individual then therefore to achieve success because they have 
lost that dignity, they have lost that pride, they have lost 
that innate experience that Mr. Ferrens just testified to.
    Mr. LOWERY. I think what we really have to understand is 
that government assistance is not a career pathway. In the 
State of Illinois, I think a person is entitled to a Link card, 
for food assistance. I think that is only 140 bucks a month. So 
the fallacy of a person is depending on a $140----
    Mr. REED. Well, Mr. Lowery, I am not talking about the 
dependency on that $140. I am talking about the dignity that is 
associated with receiving that Link card for nothing in return 
for it. What Mr. Ferrens just testified to is a human 
experience that I think we should advocate for here in 
Washington, which is that even at the $150, just the simple 
request of having an individual volunteer in their community, 
to earn that card, gives that person dignity so when they stand 
in front of their children, when they stand in front of their 
wives or their spouses or their husbands, they say, you know 
what, I have given something in return. I have earned it.
    To me, that is a fundamental policy shift that we need 
respect. And this isn't about dependency. This isn't about 
having a discussion about what is the level of resource to 
give. We can have that discussion all day long. It is about a 
fundamental policy that rewards the dignity of work, the pride 
that comes with it, and not destroying the human psyche, even 
though we are very well-intentioned with the purpose of the 
programs in which we are advocating for.
    Mr. LOWERY. I think, again, the biggest thing, and I don't 
have time to share my experiences as far as being a person with 
a record, the denial of opportunity, even with a college 
degree, having been a director of the highest rated public 
housing drug elimination program in the country. I lost that 
job. I had to work that earn fair job to get that assistance 
from a college degree with a staff of 75 and a budget of $5 
million.
    I was chopping jerk chicken and vegetables in a Jamaican 
restaurant just to fulfill that work requirement. But, again, 
what we have to understand is that people want to work 
because----
    Mr. REED. I agree with that.
    Mr. LOWERY. There is dignity in work, and when I go into a 
facility----
    Mr. REED. My time has expired.
    Mr. LOWERY. The biggest challenge that people--can I get a 
job? Can I get a job? Can I get a job?
    Mr. REED. I understand.
    Mr. LOWERY. So if the Government can kind of be a drum 
major as far as second chances, encouraging employers with 
incentives, with negligent liability, to give people an 
opportunity to work. Because, as the gentleman said, out of his 
program, the people who work 7 days a week were the people who 
had records, who had a loyalty, a commitment, who honored that 
second chance.
    I think we are hurting ourselves by denying people that 
second chance, because you have a workforce of millions of 
people around the country.
    Mr. REED. Well, I appreciate that--my time has expired. Mr. 
Ferrens, thank you for that human experience and your 
successes.
    Chairman SMITH. Thank you. Mr. Reichert.
    Mr. REICHERT. Thank you, Mr. Chairman.
    I thank the witnesses for being here.
    And, Mr. Ferrens, congratulations on your life and your 
success. We all have challenges that we go through.
    I come from a family that struggled as we were growing up. 
Ran away from home, lived in the street, lived in an old car 
when I was 16 years old.
    Some stories--you know, mine is bad enough, domestic 
violence, that kind of stuff, but everybody has a cross to 
bear. And we all go through struggles, some a lot worse than 
others. But we all deserve second chances. That is what the 
Almighty God who created us tells us, right? We are all 
forgiven and deserve a second chance, and I strongly believe 
that myself.
    When you look at these reasons as to why there is 
unemployment. I just looked down the list here, if I can read 
them off very quickly, and I hope I can get through some of 
this stuff and get to my question.
    Number one, lack of post-secondary education and training 
resulting in lower wages. Growing dependency on public benefit 
programs. High levels of opioid dependency and drug abuse. 
Rising prevalence of criminal records, along with unmet child 
support orders. Absence of available jobs in many depressed 
communities. Weakening of social or cultural norms that expect 
able-bodied men to work. And the list goes on and on and on. 
You guys have a big job.
    But your experiences that you just shared with us are the 
reason why some of these programs are successful. God makes us 
go through these challenges, right? To help those that are 
about to go through the same challenges, go down a different 
path. And thank you, gentlemen, for doing that.
    I work with a group back in Seattle called DADS, it is 
Divine Alternatives for Dad Services. And Marvin and Jeanette 
are the husband and wife who co-founded this organization, and 
they are personal friends of mine. Marvin won't be ashamed and 
Jeannette won't be ashamed for me to share with you that Marvin 
was a pimp and Jeanette was a prostitute. I was an on-time law 
enforcement officer, 33 years, and worked the Green River 
serial murder case, and worked with those people on the street 
for 19 years day in and day out. These people I call my 
friends. They have turned their life around, and they are 
helping men be fathers and get jobs.
    As I listen to the comments from our witnesses today, it 
makes me think about the consequences for families and 
children, for the United States, of working-aged men not 
participating in the work force. It is a huge consequence for 
our whole society. For these men, the possibility of being 
unable to financially support a family, as you mentioned, or 
contribute to the upbringing of their children has a negative 
ripple effect on the entire country.
    And sometimes what I get frustrated with in my law 
enforcement career is working with the community. And Marvin 
and Jeanette have done a wonderful job of bringing in the 
faith-based community which they are excited about helping. And 
bringing other social services surrounding--you get the 
families involved, if you can.
    I have two adopted grandchildren, drug addicted babies, 
that are now 14 and 15 years old. They were 3 months old when 
my daughter adopted them. They have a wonderful life ahead of 
them. But I find that these organizations don't work together. 
They are disjointed. They are inefficient. They are struggling 
and fighting over the same dollars. And we need to invest in 
those programs that can come together, work together, right, 
and recognize the goal for all of us and not compete against 
the same dollars that, you know, another effort is competing 
for.
    So, for all of you, I think all of you are coming from the 
same place in wanting to help, as we are here on this panel. 
What is the one thing? For me it is, you know, it goes back to 
family, to responsibility, accountability and faith, to be 
honest with you.
    What is the one specific policy, though, that you could all 
point to that would be the one thing you think that we can do 
to help you accomplish the tremendous task that you are all 
involved in now.
    Is there one thing that just pops in your mind. The one 
thing that maybe worked in your life, Mr. Ferrens, or maybe it 
was JumpStart. It can't be just money. What is it?
    Mr. HENDERSON. Just real quick, we have seen it in our 
program, it is that role model. I grew up in a house where I 
saw dad go to work everyday. That is what dads do.
    Mr. REICHERT. Yep, it was my football coach, my 
grandfather----
    Mr. HENDERSON. If I go in the neighborhood and my dad 
doesn't go to work or the neighbor's dad doesn't go to work, I 
don't know what dads are supposed to do.
    Mr. REICHERT. Yeah.
    Mr. HENDERSON. We are trying to replicate that in a small 
way with JumpStart, but that role model is huge.
    Mr. REICHERT. Yeah. Good. Anybody else?
    Mr. ORRELL. Yeah, I would echo that. I think you have seen 
it on the panel here today. What you need are lighthouses of 
success at the family level, the individual level, and then at 
the community level. You know, you need to have an example of 
people succeeding against a lot of barriers that they face, the 
communities face, the individuals face.
    Helping them succeed in that so it becomes plausible then 
to other people in the community that there is a way out here. 
We don't have to accept where we are. Programs like JumpStart. 
Programs that we are involved with, ICF also involves more--you 
know, are really about trying to create those lighthouses of 
hope within the community.
    Mr. REICHERT. Yeah. Well, if we can help in any way, we 
can, let us know. I know you will. But the work really happens 
where you all are, and thank you. God speed. I yield back.
    Mr. LOWERY. Thank you for your service and commitment to 
community.
    Mr. REICHERT. Thank you, sir.
    Chairman SMITH. Thank you, Mr. Reichert. And thank you to 
all of our witnesses, our panelists, I really appreciate 
sharing your insight and expertise and your perspective. It is 
inspiring to see the difference that you have made in 
yourselves and your community. I just can't say thank you 
enough, and look forward to perhaps hearing more in the future 
about the successes that you have brought about.
    Please be advised that members will have two weeks to 
submit written questions to be answered later in writing. Those 
questions and your answers will be made part of the formal 
hearing record.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
    [Public Submissions for the Record Follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
